OIG Audit Report GR-70-09-004

Compliance with Standards Governing Combined DNA Index System Activities at the Rhode Island Department of Health Laboratories, Providence, Rhode Island
Audit Report GR-70-09-004
May 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General has  completed an audit of compliance with standards governing Combined DNA Index  System (CODIS) activities at the Rhode Island Department of Health Forensic  Laboratory (Laboratory). The Federal Bureau of Investigation’s (FBI)  CODIS program blends forensic science and computer technology to provide an  investigative tool to federal, state, and local  crime laboratories in the United States, as well as those from selected international law  enforcement agencies. The  CODIS program allows laboratories to compare and match DNA profiles  electronically to assist law enforcement in solving crimes and identifying missing or unidentified persons.1  The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
The FBI  implemented CODIS as a distributed database with hierarchical levels that  enable federal, state, and local crime laboratories to compare DNA profiles  electronically.  The hierarchy consists of three distinct levels that flow upward from  the local level to the state level and then, if allowable, the national  level. NDIS, the highest level in the  hierarchy, is managed by the FBI as the nation’s DNA database containing DNA  profiles uploaded by law enforcement agencies across the United States. NDIS enables the laboratories participating  in the CODIS program to electronically compare DNA profiles on a national  level. The State DNA Index System (SDIS)  is used at the state level to serve as a state’s DNA database containing DNA  profiles from local laboratories and state offenders. The Local DNA Index System (LDIS) is used by  local laboratories. 
The  objectives of our audit were to determine if the:  (1) Laboratory was in compliance with the  NDIS participation requirements; (2) Laboratory was in compliance with the  Quality Assurance Standards (QAS) issued by the FBI; and (3)  Laboratory’s forensic  DNA profiles in CODIS databases were complete, accurate, and allowable for  inclusion in NDIS. The results of our review are as follows:

The Laboratory was in compliance with NDIS  participation requirements that we reviewed.
The Laboratory was in compliance with the FBI’s  Quality Assurance Standards that we reviewed.
We reviewed 94 of the 373 forensic profiles in  NDIS and identified 28 issues involving 21 forensic profiles in our sample. 2   Specifically, we identified: (1) 16 forensic profiles that had no documentation  of law enforcement involvement; (2) 9 forensic profiles for which the Laboratory  did not make and document a good-faith effort to obtain elimination samples and;  (3) 3 profiles with administrative errors, including 2 with inaccurate values  and 1 duplicate profile. 3  The  remaining 73 profiles were complete, accurate, and allowable.

The Laboratory is  attempting to obtain documentation of law enforcement involvement for the 16  profiles that were missing such documentation. In addition, Laboratory  officials stated that if there is a match in any case in which no elimination  sample was obtained, no report would be issued until an effort was made, and  documented, to obtain an elimination sample.  However, we believe the Laboratory should attempt to obtain the  elimination samples for the nine profiles we identified where elimination  samples were appropriate. Finally, the  Laboratory fixed the duplicate profile, and corrective actions are pending for  the inaccurate profiles. 
We made six recommendations to  address the Laboratory’s compliance with standards governing CODIS activities. The recommendations are discussed in detail  in the Findings and Recommendations section of the report. Our audit scope and methodology are detailed  in Appendix I of the report and the audit criteria are detailed in Appendix II. 
We discussed the results of our  audit with Laboratory officials and have included their comments in the report  as applicable. 
In  addition, we requested a written response to our draft audit report from the  Laboratory and the FBI. In its response,  Appendix IV of this report, the Laboratory agreed with our findings and  recommendations. In its response,  Appendix V of this report, the FBI stated that it was in contact with the  Laboratory to address our recommendations and, as a result, our recommendations  are resolved. Our analysis of the  responses and the actions necessary to close the report are contained in  Appendix VI of this report.


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells that  contains encoded information necessary for building and maintaining life.  Approximately 99.9-percent of human DNA is  the same for all people. The differences  found in the remaining 0.1-percent allow scientists to develop a unique set of  DNA identification characteristics (a DNA profile) for an individual by  analyzing a specimen containing DNA.
We found that some profiles had more than one  issue.
An elimination  sample is a biological sample from a known individual, other than the alleged  perpetrator or victim, which is analyzed for purposes of identifying those  portions of a forensic DNA profile attributable to the alleged perpetrator.





 




Return to OIG Home Page